rec. u gAr„ ko /2.q
Raul Mendez
2712 N Goldeneye Way
Meridian, Idaho 83646
Telephone: (208) 871-7237
raulmendez02@yahoo.com
Pro Se
IN THE SUPREME COURT OF THE UNITED STATES
RAUL MENDEZ,
Petitioner,

Vs.
ADA COUNTY, et al.

Supreme Court No.
9th Circuit No. 20-35917
District Court No. 1:19-cv-00301-BLW
MOTION FOR EXTENSION OF TIME
TO FILE PETITION FOR WRIT OF
CERTIORARI

Respondents.

Pro Se Petitioner Raul Mendez, respectfully requests a three month extension to file a Petition
for Writ of Certiorari. This request is made in good faith and is supported by the facts and
attached exhibits in support of it. The Order denying rehearing was filed on August 2, 2021 and
the 90 day deadline to file the petition on 11/1/2021. Mendez requests a 90 day extension from
11/1/2021 but he will diligently work to file the petition before then.
ARGUMENT
Mendez will be filing two separate Petitions for Writ of Certiorari for two different cases and
therefore the reason he needs more time to prepare the petition for both. Mendez home in Boise

RECEIVED
OCT 0.5 2021
OFFICE OF THE CLERK
SUPREME COURIf

could not prove he is not using trash service because District Judge Winmill failed to liberally
construe Mendez Pro se filing raising questions of Civil and Constitutional rights. Judge
Winmill is also the same court dismissing the other pro se complaint for unused sewer service
filed by Mendez. Both cases were dismissed without an opportunity to amend the complaint
even though the Supreme Court has instructed federal courts to liberally construe pro se
complaints and an opportunity to amend civil rights claims must be granted. The county
acknowledge that Mendez told the county several times over the course of months that he was
not using the service and in return he was told that the service could not be discontinued on an
occupied residence. Mendez raised a civil RICO claim which the District Court incorrectly
dismissed because Judge Winmill states that Mendez failed to show that. Respondents committed
2 of the 35 RICO crimes. None of the cases cited by Mendez show that proving a crime is an
essential element of a civil RICO case. The District Court also dismissed Mendez Equal.
Protection claim because he failed to show that people of other races received a waiver. In other
words, Judge Winmill states that Race motive is an essential component to prove a violation of
the Equal Protection Clause. The District Court also dismissed Mendez Due Process claim
because it does not apply to Legislative acts and the County does not have to provide a hearing
prior to certification to the property tax roll. Exhibit 2, 4 pages.
Mendez understood that people have a right to appeal, but he also found out that the 9th Circuit
is closing the doors of the courts to unrepresented parties like Mendez as illustrated by the list of
"Unpublished opinions" made up by a significant portion of pro se parties. Furthermore, it
appears that many affirmed unpublished opinions of pro se parties are made up of cases
dismissed in District Court for failure to state a claim

and then many people in need are being

denied access to justice even when the Supreme Court history shows that people should be

he is not required to go in great detail to prove facts? Furthermore, how is it possible that the
same panel issued an unpublished opinion on the same date? Mendez is not aware that both
cases were 'consolidated.' Mendez petitioned for Rehearing En Banc. Exhibit 5, 18 pages.
Again, the same panel indicated on the same date of August 2, 2021 that the 9th circuit denied
rehearing en bane for both cases and that no further filings would be accepted even though the
rules do allow for a Motion to Stay the Mandate Exhibit 6, 2 pages. Mendez filed to stay the
Mandate on August 9, 2021. Exhibit 7, 6 pages. The 9th Circuit issued the Mandate on one
case the next day on August 10, 2021 and on the same day also denied the Motion to Stay
Mandate in the other case....and on August 13, 2021, the panel denied the Motion after the
Mandate had already being issued. Exhibit 8, 3 pages.
Mendez believes that under the continued wrong doctrine that he would not be barred from
bringing the same claims against the local government entities, since Ada County has already
certified the unused trash service to the property tax roll on August 30, 2021 without the
opportunity to waive the fee and without Due Process. It has already been established that the
County has a waiver and that such hearing takes place with the Commissioners but the County
continues to deny it to Mendez. Boise has also indicated they would send Mendez to collections
including another small claims to collect on unused sewer. Exhibit 9, 2 pages. Therefore,
Mendez believes that the factors described in the body of this Motion are persuasive for the
Supreme Court to hear them, because they involve important social issues in which local
government entities: 1) are taking adverse actions against people without Due process for failing
to pay unused services, 2) are mandating services , and 3) there is a waiver for things like
vacancy, but when requested is denied to some people without the ability to provide evidence
that service is not being used

and clearly the local government entities are also making sure

